1a
APPENDIX A
FILED
June 5, 2020
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
No. 19-40269
In the Matter of: THELMA G. MCCOY
Debtor
THELMA G. MCCOY,
Appellant
v.
UNITED STATES OF AMERICA,
Appellee
Appeal from the United States District Court
for the Southern District of Texas
USDC No. 3:18-CV-21
Before BARKSDALE, HAYNES, and WILLETT,
Circuit Judges.

2a
PER CURIAM:*
Thelma McCoy incurred a large amount of
student loan debt (currently totaling over $345,000)
in pursuit of advanced degrees, beginning when she
was in her forties. She consolidated her loans and
entered into an income-based repayment plan. When
her degrees did not yield the well-paying jobs she
hoped for, she filed for bankruptcy seeking relief
from the consolidated student loan debt. At the time
of her bankruptcy filing, and throughout this
litigation, her repayment plan has required zero
dollars per month due to her low income. If her
income does not improve, McCoy will continue to
have a zero-dollar repayment obligation. Under the
structure of the repayment plan, her debt may be
forgiven twenty-five years following her first
payment
under
the
plan.
See
34 C.F.R.
§ 685.221(f)(1), (f)(3)(ii)(D) (2013). However, under
current law, such forgiveness has tax implications
unless McCoy were to qualify for an employmentbased exception; any forgiven amount will be subject
to whatever taxation laws are in effect at the time
the debt is forgiven. 26 U.S.C. §§ 61(a)(11), 108(f)(1).
Student loan debt is usually not dischargeable in
bankruptcy. 11 U.S.C. § 523(a)(8). However, there is
an exception, which McCoy asserted, for
circumstances where failure to discharge would
impose an “undue hardship” on the debtor. Id. The
Pursuant to 5TH CIR. R. 47.5, the court has determined that
this opinion should not be published and is not precedent
except under the limited circumstances set forth in 5TH CIR. R.
47.5.4.
*

3a
bankruptcy court found no undue hardship, and the
district court affirmed.1 This timely appeal followed.2
Requi rements for Student Loan Di scharge.
Although the bankruptcy code provides for student
loan debt discharge for undue hardship, it does not
define this term. See id. In the absence of a statutory
definition, we have adopted a three-part test
originally used by the Second Circuit. In re
Gerhardt, 348 F.3d 89, 91 (5th Cir. 2003) (adopting
test from Brunner v. N.Y. State Higher Educ. Servs.
Corp., 831 F.2d 395, 396 (2d Cir. 1987) (per curiam)).
To prove that a debt imposes an “undue
hardship,” a debtor must show:
(1) that the debtor cannot maintain, based on
current income and expenses, a “minimal”
standard of living for herself and her
dependents if forced to repay the loans; (2)
that
additional
circumstances
exist
The bankruptcy court had jurisdiction over this case under
28 U.S.C. § 1334, the district court had jurisdiction over the
initial appeal under 28 U.S.C. § 158(a)(1), and our court has
jurisdiction over McCoy’s instant appeal under 28 U.S.C.
§ 158(d)(1).
1

We “apply[] the same standards of review to the bankruptcy
court’s finding[s] of fact and conclusions of law as applied by
the district court”; “[c]onsequently, the bankruptcy court’s
findings of fact are reviewed for clear error and conclusions of
law are reviewed de novo.” In re Thomas, 931 F.3d 449, 451-52
(5th Cir. 2019) (internal quotation marks and citations
omitted). Thus, we review de novo any legal questions
underlying whether the loans pose an undue hardship. Id. at
452.
2

4a
indicating that this state of affairs is likely to
persist for a significant portion of the
repayment period of the student loans; and
(3) that the debtor has made good faith
efforts to repay the loans.
Brunner, 831 F.2d at 396.
Now 62 years old, McCoy describes the problems
she has faced due to health issues and difficulty
finding a job. Arguing for affirmance, the
Government appears not to contest the basic premise
that McCoy cannot afford to make higher payments
on her loan at the present time. The impact of a zerodollar monthly payment under an income-based
repayment plan on the first prong of Brunner has
not been decisively determined by our court
previously,3 and we conclude that we need not
address it because McCoy has failed to establish that
the bankruptcy court (as affirmed by the district
court) erred in its findings on the second prong.
Brunner Second Prong. Under our precedent,
“[a]dditional
circumstances
encompass
circumstances that impacted on the debtor’s future
earning potential but which were either not present
when the debtor applied for the loans or have since
McCoy argues that the undue hardship comes from the tax
liability she will face some twenty plus years from now. That
argument is highly speculative and fails to account for the fact
that tax laws can and do change and that, if she did not survive
until the end of the twenty-five-year repayment period, the loan
would be discharged without any further liability to her estate.
See 34 C.F.R. § 682.402(b)(1).
3

5a
been exacerbated.” Gerhardt, 348 F.3d at 92 (cleaned
up) (citation omitted). To meet the second prong’s
“demanding
requirement,”
a
“debtor
must
specifically prove a total incapacity in the future to
pay [her] debts for reasons not within [her] control.”
Id. (internal alterations, quotation marks, and
citations omitted). These circumstances “may include
illness, disability, a lack of useable job skills, or the
existence of a large number of dependents.” In re
Oyler, 397 F.3d 382, 386 (6th Cir. 2005). We recently
applied this standard to a debtor with a degenerative
medical condition who had quit jobs where the
employers “were unable to accommodate her need to
remain sedentary for periods of time during her
shifts” and determined that she could not meet the
second prong because she was “capable of
employment in sedentary work environments.”
Thomas, 931 F.3d at 452.
Here, McCoy argues that “at least two major
additional circumstances” demonstrate that the
state of affairs is likely to persist: “(1) she is
elderly—at 62 she is less than three years away from
the minimum retirement age; and (2) she suffers
from severe mental and physical disabilities, which
are not likely to recede or resolve.”
The bankruptcy court determined that McCoy
could not satisfy the second prong because, although
her payments are set at zero dollars per month, she
had
not
shown
additional
circumstances
demonstrating her inability to pay a higher monthly
amount would persist. Therefore, McCoy failed to
meet her burden of proof.

6a
In
affirming
the
bankruptcy
court’s
determination that McCoy failed to satisfy the
second prong, the district court noted that
bankruptcy courts have considered the timing of
additional circumstances. See, e.g., In re Thoms, 257
B.R. 144, 149 (Bankr. S.D.N.Y. 2001) (stating that a
pertinent additional circumstance would be one
“which was either not present when the debtor
applied for the loans or has since been exacerbated”
because “[o]therwise, the debtor could have
calculated that factor into its cost-benefit analysis at
the time the debtor obtained the loan”). Because
critical health issues (a car accident and a facial
burning incident) occurred before McCoy took out
the bulk of the loans and did not prevent her from
obtaining her doctorate and various forms of
employment, the district court determined that the
bankruptcy court did not clearly err in its
determination.
McCoy argues that the district court applied the
wrong standard when it reviewed the bankruptcy
court’s decision for clear error rather than providing
a de novo review. However, the question at issue—
whether McCoy’s evidence sufficiently demonstrated
that additional circumstances show the state of
affairs is likely to persist—rests upon factual
determinations. See In re Ostrom, 283 F. App’x 283,
286 (5th Cir. 2008) (per curiam) (holding that the
bankruptcy court did not clearly err when it found
that a debtor did not fulfill the second prong because
the debtor had not put any evidence, except for his
own testimony, into the record demonstrating that
his medical concerns would impact future earnings).

7a
Thus, we conclude that the district court applied the
correct standard.
Reviewing the evidence provided, we conclude
that the district court correctly determined that the
bankruptcy court did not clearly err in its
determination about the second prong of the
Brunner undue hardship test. Accordingly, we need
not reach the third prong.
AFFIRMED.

8a
APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
GALVESTON DIVISION
THELMA G MCCOY
Appellant

VS.

UNITED STATES
OF AMERICA

§
§
§
§
§
§
§
§

CIVIL ACTION
NO. 3:18-CV-21

MEMORANDUM OPINION AND ORDER
This is a bankruptcy appeal. The bankruptcy
debtor/appellant, Thelma McCoy (“McCoy”), sought a
judgment from the bankruptcy court discharging her
student loan debt. After McCoy rested her case at
trial, the bankruptcy court declared that McCoy’s
student loans were not discharged in bankruptcy
and entered a final judgment to that effect. See
Southern District of Texas Bankruptcy Case Number
16-8007 at Dkt. 77. The Court AFFIRMS the
bankruptcy court’s judgment.
I.

BACKGROUND

After her youngest son entered college, McCoy
went back to college herself in 2000 at the age of 43
(Dkt. 3-3 at pp. 12, 24; Dkt. 3-5 at p. 36). Over the
next 14 years, McCoy obtained a bachelor’s degree
from Louisiana State University in general studies;

9a
a master’s degree from the University of Houston in
social work; and a Ph.D. from the University of
Texas in social work (Dkt. 3-4 at p. 543). In the
course of earning her degrees, McCoy incurred
approximately $350,000.00 in student loan debts;
and she filed a Chapter 7 bankruptcy petition less
than 18 months after getting her Ph.D. (Dkt. 3-3 at
p. 20; Dkt. 3-4 at p. 543; Dkt. 3-5 at p. 1). McCoy
then filed an adversary complaint in the bankruptcy
proceeding in which she sought a judgment
discharging her student loans;1 the United States
Department of Education (“the United States” or
“the Department of Education”) was the defendant
in the adversary proceeding and is the appellee here
(Dkt. 3-5 at p. 35). See 11 U.S.C. § 523(a)(8).
At the trial on McCoy’s complaint requesting
discharge of her student loans, McCoy’s counsel
rested after only calling McCoy (Dkt. 3-3 at p. 46).
The bankruptcy court then granted the Department
of Education’s motion for judgment on partial
findings under Federal Rule of Civil Procedure 52(c)
(Dkt. 3-3 at p. 53). The bankruptcy judge issued his
findings of fact and conclusions of law from the
bench; and in them he explained that McCoy had not
met her burden of proving that, if forced to repay her
student loans, she would suffer an inability to
maintain a minimal standard of living for herself

The relevant bankruptcy court case numbers are 16-80108
(Chapter 7 petition) and 16-8007 (adversary proceeding). Both
were filed in the United States Bankruptcy Court for the
Southern District of Texas, Galveston Division.
1

10a
that was likely to persist for a significant portion of
the loans’ repayment period:
[McCoy] needs not only to demonstrate that
she has a current hardship but that the
hardship will in fact be maintained for the
foreseeable future. In other words, that her
inability to pay will persist.
…
She has not shown the situation will persist
for an inability to pay[.]
…
For example, she’s recently gotten some parttime employment.
It’s possible—we don’t have any evidence at
all—that over the next five years, she could
get even better employment.
…
I find she’s failed in her burden of proof. I’m
granting the Government’s motion. I’m
granting judgment for the Government that
the student loan is excepted from discharge.
Dkt. 3-3 at pp. 53-55.
McCoy appealed to this Court.

11a
II. BANKRUPTCY
APPEALS
STUDENT LOAN DEBT

AND

Federal district courts have jurisdiction to hear
appeals from the final judgments of bankruptcy
judges. 28 U.S.C. § 158(a). An appeal to a district
court from the bankruptcy court “shall be taken in
the same manner as appeals in civil proceedings
generally are taken to the courts of appeals from the
district courts[.]” 28 U.S.C. § 158(c)(2). This Court
reviews the bankruptcy court’s legal conclusions de
novo but may only disregard a fact finding made by
the bankruptcy court if that fact finding is clearly
erroneous. In re Perry, 345 F.3d 303, 309 (5th Cir.
2003). “A factual finding is not clearly erroneous if it
is plausible in the light of the record read as a
whole.” In re Ram ba, Inc., 416 F.3d 394, 402 (5th
Cir. 2005). The Fifth Circuit has emphasized that,
under the “clearly erroneous” standard, this Court
“may [not] weigh the evidence anew” and may only
set aside the bankruptcy court’s fact findings if it is
“left with the definite and firm conviction that a
mistake has been committed.” In re Perry, 345 F.3d
at 309 (quotation marks omitted).
Generally, student loan debt like McCoy’s is not
dischargeable in bankruptcy. See 11 U.S.C.
§ 523(a)(8); see also Brunner v. New York State
Higher Educ. Services Corp., 831 F.2d 395, 396 (2d
Cir. 1987) (noting “the clear congressional intent
exhibited in section 523(a)(8) to make the discharge
of student loans more difficult than that of other
nonexcepted debt”). In order to obtain a discharge of
her student loans, McCoy was required to prove to
the bankruptcy court that excepting her student

12a
loans from discharge “would impose an undue
hardship on [her] and [her] dependents[.]” 11 U.S.C.
§ 523(a)(8). Since she had no dependents, in order to
establish an undue hardship within the meaning of
the statute, McCoy was required to prove the
following three prongs: (1) that she cannot maintain,
based on current income and expenses, a minimal
standard of living for herself if forced to repay her
student loans; (2) that additional circumstances exist
indicating that the state of affairs described in prong
one is likely to persist for a significant portion of the
repayment period of the student loans; and (3) that
she has made good faith efforts to repay the loans. In
re Gerhardt, 348 F.3d 89, 91 (5th Cir. 2003). The test
is demanding, and “nothing in the Bankruptcy Code
suggests that a debtor may choose to work only in
the field in which he was trained, obtain a lowpaying job, and then claim that it would be an undue
hardship to repay his student loans.” Id. at 93.
Here, the bankruptcy court found that McCoy
could not, on the evidence she proffered, fulfill the
second prong of the Gerhardt test (Dkt. 3-3 at pp. 5355);2 the Court reviews that finding for clear error.
In re Ostrom , 283 Fed. App’x 283, 286 (5th Cir.
2008).

The Gerhardt test is also frequently referred to as the
“Brunner
test,”
as
the
Fifth Circuit
adopted
the
Second Circuit’s Brunner test in the Gerhardt opinion. In re
Gerhardt, 348 F.3d 89, 91 (5th Cir. 2003) (citing Brunner v.
New York State Higher Educ. Services Corp., 831 F.2d 395, 396
(2d Cir. 1987)).
2

13a
III. THE BANKRUPTCY COURT DID NOT
CLEARLY ERR.
The bankruptcy court did not clearly err in
finding that McCoy could not, on the evidence she
proffered, fulfill the second prong of the Gerhardt
test. The second prong of the Gerhardt test required
McCoy to show the bankruptcy court at trial that
additional circumstances exist indicating that her
inability to maintain a minimal standard of living
for herself if forced to repay her student loans is
likely to persist for a significant period of time.
Gerhardt, 348 F.3d at 92 (quotation marks and
brackets omitted; bracketed phrase added). The
Fifth Circuit has explained that:
“[a]dditional
circumstances”
encompass
circumstances that impacted on the debtor’s
future earning potential but which were
either not present when the debtor applied
for the loans or have since been exacerbated.
This second aspect of the test is meant to be
a demanding requirement. Thus, proving
that the debtor is currently in financial
straits is not enough. Instead, the debtor
must specifically prove a total incapacity in
the future to pay his debts for reasons not
within his control.
Id. (citations, ellipses, brackets, and some
quotation marks omitted).
“An example of an additional circumstance
impacting on the debtor’s future earnings would be if
the debtor experienced an illness, developed a
disability, or became responsible for a large number

14a
of dependents after receiving the loan.” In re Thoms,
257 B.R. 144, 149 (Bankr. S.D.N.Y. 2001) (emphasis
added). The timing requirement exists so that courts
can examine whether “the debtor could have
calculated [a particular circumstance] into its costbenefit analysis at the time the debtor obtained the
loan.” In re Roach, 288 B.R. 437, 445 (Bankr. E.D.
La. 2003) (quoting Thoms).
In her brief, McCoy argues that she provided
sufficient evidence to establish the second prong of
the Gerhardt test in the bankruptcy court by
entering evidence of her “lack of employability and a
variety of serious illnesses” (Dkt. 14 at p. 15). In
addressing McCoy’s argument, the Court first notes
that, as the United States points out, McCoy has not
included a single citation to the record in her brief,
“burden[ing] this [C]ourt with searching for and
often guessing as to which parts of the record are
relevant to [McCoy’s] arguments.” In re Stotler and
Co., 166 B.R. 114, 117 (N.D. Ill. 1994). This failure to
include record citations is a clear violation of the
bankruptcy rules’ directive that an appellant’s brief
contain “citations to the … parts of the record on
which the appellant relies[.]” Fed. R. Bankr. P.
8014(a)(8). Bankruptcy Rule 8014(a), which governs
the presentation of appellants’ briefs in bankruptcy
appeals, “is not only a technical or aesthetic
provision, but also has a substantive function—that
of providing the other parties and the [C]ourt with
some indication of which flaws in the appealed order
or decision motivate the appeal.” In re Gulph Woods
Corp., 189 B.R. 320, 323 (E.D. Pa. 1995). “For that
reason alone, [McCoy’s] appeal fails. The [C]ourt

15a
continues to the substance of the appeal for the sake
of completeness.” In re Stotler, 166 B.R. at 117.
The Court has independently reviewed the
record and concluded that it provides ample support
for the bankruptcy judge’s finding on Gerhardt’s
second prong. McCoy’s brief contends that her
inability to maintain a minimal standard of living
for herself if forced to repay her student loans is
likely to persist for a significant period of time
because she suffers from a variety of anxiety and
stress disorders (including post-traumatic stress
disorder), headaches, insomnia, and pain throughout
her body (Dkt. 14 at pp. 7-8). The brief characterizes
the bulk of McCoy’s physical and psychological
ailments as the aftereffects of a horrific car accident
in 2007 and a “facial burning incident at a spa” in
2010 (Dkt. 14 at pp. 6-8). There is evidence in the
record of these events: McCoy discussed the car
accident at trial, though some of her testimony was
correctly excluded by the bankruptcy judge on the
basis that McCoy was not sufficiently qualified to
offer medical causation opinions (Dkt. 3-3 at pp. 3335); and, although McCoy did not mention the
burning of her face at trial, she discussed that
incident in her deposition (Dkt. 3-5 at pp. 114-16).
However, the record also reflects that McCoy
overcame those traumas to get her doctorate in 2014
and has diligently sought, and often obtained,
employment as a professor, a teaching assistant, a
research assistant, and a social worker since, at the
latest, 2009 (Dkt. 3-4 at pp. 103-241, 543-48).
Indeed, at the time of trial, McCoy was working
part-time for two different universities and a mental
health agency (Dkt. 3-3 at pp. 41-42). McCoy’s

16a
resume—despite limiting its scope to her college
education and her research, counseling, and teaching
jobs and excluding her prior work with the
United States Postal Service—is six pages long and
contains an impressive range of aptitudes and
professional experience (Dkt. 3-4 at pp. 543-48; Dkt.
3-5 at p. 109). In short, the Court finds McCoy’s
circumstances materially identical to those of the
debtor in the Fifth Circuit’s Ostrom opinion, who
similarly “presented no evidence, other than his own
testimony, that any impairments to his earnings
[we]re likely to persist into the future, … introduced
no evidence that the effects of his [health] problems
preclude[d] him from serving as a counselor, and …
was able to obtain a master’s degree and serve as a
private counselor despite his [health] problems.” In
re Ostrom, 283 Fed. App’x at 286.
The Court further notes that, according to her
own testimony, McCoy applied for the majority of
her loans “after the first couple years” of her Ph.D.
program (Dkt. 3-3 at p. 26). Since she earned her
doctorate four years after the spa burning incident
and seven years after her car accident, she
necessarily must have applied for at least a
significant portion of her loans after suffering the
injuries that she now seeks to classify as “additional
circumstances” within Gerhardt’s second prong.
Gerhardt’s second prong requires the debtor to show
that the “additional circumstances” indicating a
persistent inability to pay either were not present
when the debtor applied for the loans at issue or
have since been exacerbated. In re Gerhardt, 348
F.3d at 92. The record does not contain any clear
indication of what portion of McCoy’s loans postdate

17a
the injuries she now blames for her inability to pay
her loans back, nor does it provide any clear picture
of whether, when, or how any hinderances that
predated her loan applications were later
exacerbated.
The bankruptcy court did not clearly err in
finding that McCoy had not fulfilled the second
Gerhardt prong.
IV. CONCLUSION
The Court AFFIRMS the bankruptcy court’s
judgment. The debts owed by Thelma McCoy
forming the basis of this appeal may not be
discharged
in
bankruptcy
under
11 U.S.C.
§ 523(a)(8).
The Court will issue a separate final judgment.
SIGNED at Galveston, Texas, this 7th day of
March, 2019.
/s/ George C. Hanks Jr.
George C. Hanks Jr.
United States District Judge

18a
APPENDIX C
IN THE UNITED STATES BANKRUPTCY COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
GALVESTON DIVISION
IN RE:
THELMA G. MCCOY,
DEBTOR

THELMA G. MCCOY,
PLAINTIFF,
v.
UNITED STATES
DEPARTMENT OF
EDUCATION
(FedLoan Servicing), et al,
DEFENDANTS.

§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§

MAIN CASE
NO. 16-80108
CHAPTER 7
ADV. CASE
NO. 16-08007
GALVESTON,
TEXAS
THURSDAY,
DECEMBER 7,
2017
8:59 A.M. TO
10:17 A.M.

[RE: 16-08007]
TRIAL ON COMPLAINT
BEFORE THE HONORABLE MARVIN P. ISGUR
UNITED STATES BANKRUPTCY JUDGE
APPEARANCES:
FOR THE PARTIES:

SEE NEXT PAGE

19a
COURT RECORDER:

DANA PEREZ

TRANSCRIPTION SERVICE BY:
JUDICIAL TRANSCRIBERS OF TEXAS, LLC
935 ELDRIDGE ROAD, #144
SUGAR LAND, TEXAS 77478
Tel: 281-277-5325 / Fax: 281-277-0946
www.judicialtranscribers.com
Proceedings recorded by electronic sound recording;
transcript produced by transcription service.
APPEARANCES:
FOR THE DEBTOR/PLAINTIFF:
THELMA G. MCCOY
W. DAVID TOROK, Esquire
1414 S. Friendswood Drive
Suite 226A
Friendswood, Texas 77546
832-481-9095
FOR THE DEFENDANT:
U.S. DEPARTMENT OF EDUCATION
RICHARD A. KINCHELOE, Esquire
U.S. Attorney’s Office
1000 Louisiana Street
Suite 2300
Houston, Texas 77002
713-567-9422

20a
***
[53]
THE COURT: I’m granting the motion for
judgment on partial findings. Let me give my
reasons why. Under the Brunner test and the
Gerhardt test, Ms. McCoy is required to demonstrate
not only that she is currently suffering a hardship in
her ability to pay but that that hardship will—
MR. TOROK: I’m sorry.
THE COURT: She needs not only to demonstrate
that she has a current hardship but that the
hardship will in fact be maintained for the
foreseeable future. In other words, that her inability
to pay will persist.
She has qualified for zero repayment. Zero. The
only thing that she has to do to maintain the zero
repayment, according to Exhibits 8 and 9, is to
submit annual statements that show that her
income remains law, at which point the payments
don’t go up; they remain at zero for 25 years.
She is 60 years old. There is no forgiveness of
debt currently, and there’s no obligation to pay
currently. She’s been approved for zero. She has not
shown an ability to submit annual statements.
MS. MCCOY: They know that’s not true.
THE COURT: Stop. She has not shown an
inability to submit—

21a
MR. TOROK: Don’t do that, Ms. McCoy.
[54]
MS. MCCOY: Their loan person knows that
that’s not true. I don’t have that—
MR. TOROK: Ms. McCoy—
MS. MCCOY: But that’s not true. They’re lying.
MR. TOROK: (Conferring with client.)
THE COURT: She has not shown an inability to
submit annual income statements or that the
Government will not respect her annual income
statements and maintain her payments at zero. She
has not shown the situation will persist for an
inability to pay, and she has no present inability to
pay because the only amount she has to pay is zero.
The argument that there may someday be some
debt forgiveness assumes that the recent events
aren’t replicable. For example, she’s recently gotten
some part-time employment.
It’s possible—we don’t have any evidence at all—
that over the next five years, she could get even
better employment. And, if so, she could be able to
pay some back. If she’s not able to get better
employment, she remains at a zero level.
She’s failed in her burden of proof. Having
applied for the Income Based Repayment Program
and been approved for it, she cannot meet her

22a
burden of proof when
established it at zero.

the

Government

has

[55]
She does have a duty to supply annual
statements. If she doesn’t do that, her payment is
going to go up. But she needs to provide those
annual statements, and she hasn’t shown any
inability to provide the annual statements to keep
her payment level.
I find she’s failed in her burden of proof. I’m
granting the Government’s motion. I’m granting
judgment for the Government that the student loan
is excepted from discharge. We’ll issue a judgment to
that effect.
We are in adjournment.
THE CLERK: All rise.
(Proceedings adjourned at 10:17 a.m.)

23a
APPENDIX D
UNITED STATES COURT OF APPEALS FOR
THE FIFTH CIRCUIT
No. 19-40269
IN THE MATTER OF: THELMA G. MCCOY
Debtor,
THELMA G. MCCOY,
Appellant,
versus
UNITED STATES OF AMERICA,
Appellee.
Appeal from the United States District Court
for the Southern District of Texas

ON PETITION FOR REHEARING EN BANC
(Opinion June 5, 2020, 5 Cir., ________, ________
F.3d ________)
Before BARKSDALE, HAYNES, and WILLETT, Circuit
Judges.

24a
PER CURIAM:
(x)

Treating the Petition for Rehearing En Banc
as a Petition for Panel Rehearing, the Petition
for Panel Rehearing is DENIED. No member
of the panel nor judge in regular active service
of the court having requested that the court be
polled on Rehearing En Banc (FED. R. APP. P.
and 5TH CIR. R. 35), the Petition for Rehearing
En Banc is DENIED.

( )

Treating the Petition for Rehearing En Banc
as a Petition for Panel Rehearing, the Petition
for Panel Rehearing is DENIED. The court
having been polled at the request of one of the
members of the court and a majority of the
judges who are in regular active service and
not disqualified not having voted in favor
(FED. R. APP. P. and 5TH CIR. R. 35), the
Petition for Rehearing En Banc is DENIED.
ENTERED FOR THE COURT:
/s/ Catharina Haynes
CATHARINA HAYNES
UNITED STATES
CIRCUIT JUDGE
[Dated: August 3, 2020]

